HHS/OIG-Audit--"Improper Fiscal Year 1998 Medicare Fee-for-Service Payments, (A-17-99-00099)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Improper Fiscal Year 1998 Medicare Fee-for-Service Payments," (A-17-99-00099)
February 9, 1999
Complete Text of Report is available in PDF format
(875 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that improper payments under Medicare's fee-for-service
system totaled an estimated $12.6 billion during Fiscal Year 1998. This year's
estimate of improper payments is $7.7 billion less than last year's estimate
of $20.3 billion and $10.6 billion less than the previous year's estimate of
$23.2 billion. This decline in improper payments is attributable to several
factors: (1) the Health Care Financing Administration's (HCFA) efforts under
the Medicare Integrity Program, (2) fraud and abuse initiatives, (3) improved
provider compliance with Medicare reimbursement rules, (4) HCFA/OIG outreach
efforts emphasizing Medicare documentation requirements, and (5) implementation
of HCFA's corrective action plan. Although significant progress has been made,
recommendations call for HCFA to continue its diligence in reducing past identified
problems and to keep abreast of those issues that could negatively affect future
error rates. The HCFA generally concurred with our findings and recommendations.